HHS/OIG-Audit--"Review of Employment and Training Activities Funded Under Titles IV-A of the Social Security Act for the Period October 1, 1994 Through September 30, 1996, (A-05-98-00010)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Employment and Training Activities Funded Under Titles IV-A
of the Social Security Act for the Period October 1, 1994 Through September
30, 1996," (A-05-98-00010)
August 26, 1999
Complete Text of Report is available in PDF format
(966 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
During Fiscal Years (FY) 1994 and 1995 the State of Wisconsin operated a Title
IV-F JOBS program but the expenditures far exceeded the approved ceiling. Title
IV-A waiver savings funds were approved, in part, to cover the excess spending.
The waiver savings funds required a dollar for dollar matching contribution
from the State. We determined that the expenditures assigned as matching cost
to the waiver savings program supplanted normal State job training activities.
The State has concurred that it inappropriately claimed $1,497,464 ($748,732
Federal share) for FY 1995 and $5,140,249 ($2,570,125 Federal share) for FY
1994.